            OFFICE OF
            INSPECTOR
            GENERAL
            UNITED STATES POSTAL SERVICE




     Rehabilitation Assignments for
      Employees Injured on Duty

                    Audit Report




                                   August 27, 2012

Report Number HR-AR-12-004
                                                                            August 27, 2012

                                              Rehabilitation Assignments for Employees
                                                                        Injured on Duty

                                                            Report Number HR-AR-12-004



BACKGROUND:                                      WHAT THE OIG FOUND:
The Federal Employees’ Compensation              The Postal Service has contract work
Act (FECA) provides various benefits to          that can potentially be made available
civilian federal employees who sustain           as rehabilitation assignments to
injuries or an occupational disease as a         employees injured on duty. Specifically,
result of their employment. The U.S.             we identified a contract that provides
Postal Service is the largest FECA               auto services, including transporting
participant compared to other federal            vehicles in need of repair and
agencies. In 2011, the Postal Service            maintenance, to 28 vehicle maintenance
paid $1.2 billion in workers’                    facilities (VMFs) or repair garages. We
compensation claims. Additionally,               found that employees who have been
there are about 16,497 employees with            injured on the job and are able to return
disabilities that are expected to be             to work could perform some of this work
permanent or prolonged who are                   at 10 of the 28 aforementioned VMFs.
currently receiving workers’                     There is also the potential for other
compensation benefits.                           VMFs to provide similar rehabilitation
                                                 assignments.
A rehabilitation assignment is provided
when the effects of an employee’s injury         WHAT THE OIG RECOMMENDED:
are considered permanent and/or the              We recommended that management
employee has reached maximum                     establish and implement a plan (that
medical improvement. The                         includes staffing and training) to allocate
Postal Service developed the                     a portion of the vehicle transport
Rehabilitation Program to fulfill its legal      services performed at the 28 VMFs to
obligation to provide work for employees         employees injured on duty. We also
injured on duty. The program facilitates         recommended assessing the feasibility
the proper placement and                         of providing similar rehabilitation
accommodation of employees injured on            assignments at the remaining 281
duty.                                            VMFs.

The objectives of our audit were to              Link to review the entire report.
review Postal Service policy on
rehabilitation assignments for
employees injured on duty and
determine whether these employees
could perform certain contract work.
August 27, 2012

MEMORANDUM FOR:            DEAN J. GRANHOLM
                           VICE PRESIDENT, DELIVERY AND POST OFFICE
                           OPERATIONS

                           DEBORAH M. GIANNONI-JACKSON
                           VICE PRESIDENT, EMPLOYEE RESOURCE
                           MANAGEMENT




                           for
FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Rehabilitation Assignments for Employees
                           Injured on Duty (Report Number HR-AR-12-004)

This report presents the results of our audit of Rehabilitation Assignments for U.S.
Postal Service Employees Injured on Duty (Project Number 11YG048HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea L. Deadwyler, director,
Human Resources and Security, or me at 703-248-2100.

Attachments

cc: Megan Brennan
    Susan Brownell
    Linda DeCarlo
    Corporate Audit and Response Management
Rehabilitation Assignments for Employees                                                                           HR-AR-12-004
 Injured on Duty



                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

U.S. Auto Club ................................................................................................................ 2

Tangoe and EnergyUnited .............................................................................................. 3

Recommendations .......................................................................................................... 3

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 4

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objectives, Scope, and Methodology .......................................................................... 7

   U.S. Auto Club ............................................................................................................. 7

   Tangoe and EnergyUnited ........................................................................................... 8

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Detailed Information .................................................................................. 10

   Tangoe ...................................................................................................................... 10

   EnergyUnited ............................................................................................................. 10

Appendix C: Management’s Comments ........................................................................ 12
Rehabilitation Assignments for Employees                                                           HR-AR-12-004
 Injured on Duty



Introduction

This report presents the results of our audit on rehabilitation assignments for employees
injured on duty (Project Number 11YG048HR000). Our objectives were to review U.S.
Postal Service policy on rehabilitation assignments for employees injured on duty and
determine whether those employees could perform certain contract work. This
self-initiated audit addresses financial and operational risk. See Appendix A for
additional information about this audit.

Postal Service employees are covered by the Federal Employees’ Compensation Act
(FECA).1 Enacted in 1916, FECA provides various benefits2 to civilian federal
employees who sustain injuries or an occupational disease as a result of their
employment.3 The Postal Service is the largest FECA participant compared to other
federal agencies. For chargeback year4 2011, the Postal Service paid $1.2 billion in
workers’ compensation claims and $67 million in administrative fees.

Providing gainful employment within medically defined work restrictions is in the best
interest of both employees and the Postal Service. In addition, FECA requires the
Postal Service to make every effort to find adequate work within an employee’s
date-of-injury position,5 craft, tour, and facility in accordance with their medical
limitations. Management expects employees who fully or partially recover from their
injuries to return to work; however, if adequate work is not available, management
places them on the Office of Workers' Compensation Programs’ (OWCP) periodic roll.
Also included on the periodic roll are employees with disabilities that are expected to be
permanent or prolonged who are receiving workers’ compensation benefits. As of
March 31, 2012, the Postal Service had 16,497 employees on the periodic roll.

The Postal Service developed the current Rehabilitation Program in December 1995 to
fulfill its legal obligation to provide work for employees injured on duty.6 The program
facilitates the proper placement and accommodation of employees injured on duty.
Reassignment or reemployment of these individuals must comply with applicable
collective bargaining agreements.7 As of March 31, 2012, the Postal Service has placed
4,233 employees with work-related disabilities in rehabilitation assignments and
1,411 rehabilitation assignments are pending review.8


1
  5 U.S.C. §81.
2
  Benefits include wage replacement, medical treatment, and vocational rehabilitation.
3
  FECA is administered by the Department of Labor’s (DOL) Office of Workers' Compensation Programs (OWCP).
4
  The chargeback year (July 1 through June 30) is the period when the DOL bills agencies for workers’ compensation
benefit claims.
5
  The employee’s position at the time the injury occurred.
6
  5 U.S.C. §8151.
7
  The four major Postal Service unions are: The American Postal Workers Union (APWU), the National Association of
Letter Carriers (NALC), the National Postal Mail Handlers Union (NPMHU), and the National Rural Letter Carriers’
Association (NRLCA).
8
  Pending review indicates an assignment has been identified; however, a final placement determination is made
once additional steps related to compensation are addressed.

                                                        1
Rehabilitation Assignments for Employees                                                                HR-AR-12-004
 Injured on Duty


Conclusion

The Postal Service has contract work that it can potentially make available to
employees on the periodic roll as rehabilitation assignments. Specifically, the U.S. Auto
Club’s (USAC) Motoring Division, Inc. contract provides auto services, including
shuttling9 vehicles. We found that 10 of the 28 Postal Service vehicle maintenance
facilities (VMFs)10 which use USAC employees to transport vehicles in need of
maintenance or repair could potentially provide work for employees on the periodic roll
and it is possible that additional VMFs may be able to provide similar assignments.
Additionally, we reviewed telecommunications and utility invoice billing services
currently performed by Tangoe and EnergyUnited to determine the potential for
in-sourcing some or all of those services. We found that the work performed under
these two contracts was more comprehensive than the payment of invoices and
required specific knowledge and skills that may not be suited for rehabilitation
assignments.

U.S. Auto Club

The Postal Service has a fleet of 212,758 vehicles, which are serviced at 309 VMFs for
scheduled maintenance and repairs. USAC provides the necessary shuttle service to
move these vehicles from their assigned locations for maintenance, repair, or transfer.
However, the VMFs are not mandated to use USAC for this purpose. VMF management
has the discretion to use local, independent contractors to transport vehicles if it is more
cost effective. Management indicated that they outsourced the transport of vehicles
because of the decline of VMF personnel who would normally perform this service.

Of the 309 VMFs, only 28 currently use USAC to shuttle vehicles. The remaining
281 VMFs use local contractors for this purpose. We surveyed the 28 VMF managers
and determined that 10 can use employees currently on the periodic roll to shuttle
vehicles. Specifically, these 10 managers stated that, together, they can employ 31 of
these employees on a part-time basis.11 This is because employees on the periodic roll
can drive all the vehicles shuttled for the Postal Service at the 10 VMFs to drop-off
locations rather than having USAC tow them. The remaining 18 indicated they could not
accommodate such employees because they cannot guarantee them a 4-hour shift.12




9
  Shuttling involves using a tow truck to move vehicles from one place to another.
10
   VMFs typically serve as repair garages for Postal Service vehicles. Along with the expected repair and wash bays
and associated support areas, these facilities include an administrative area, employee facilities, and fuel islands.
11
   Vehicles have to be shuttled before or after a carrier’s shift leaving only a 4-hour time frame for part-time work.
12
   The FECA Procedure Manual deems a job offer suitable when 4 hours of work are provided.


                                                           2
Rehabilitation Assignments for Employees                                                               HR-AR-12-004
 Injured on Duty


As of March 31, 2012, the Postal Service had 16,497 employees on the periodic roll,
either awaiting rehabilitation assignments or not yet able to return to work.13 Driving
vehicles to various locations for the VMFs could provide gainful employment for some of
these employees. Postal Service officials agreed that some of the employees on the
periodic roll may be able to perform the work in question; however, they will have to
make these decisions on a case-by-case basis since they have to match the work
assignment with the employees’ limitations and vocational abilities. The employees
would also have to pass the Postal Service’s Safe Driver Program.14 Further, the
Postal Service is required to make every effort to find adequate work within an
employee’s date-of-injury position, craft, tour, and facility.15

Opportunities to provide rehabilitation assignments to additional employees currently on
the periodic roll may also exist at the 281 VMFs currently using local contractors for
shuttling services. In-sourcing at least a portion of the shuttle services at these facilities
could help the Postal Service comply with its legal responsibilities under FECA and
would result in reduced contract costs.16 In FY 2011, the Postal Service spent
$3.5 million for vehicle shuttle services for the 10 VMFs cited in this report.17

Tangoe and EnergyUnited

We reviewed the Tangoe and EnergyUnited contracts, which provide consolidated
telecommunication and energy billing services, respectively. The services include
ordering, billing, auditing, rate analysis, and reporting. We determined that the work
performed by these contractors requires skills and a knowledge base not readily
available within the current Postal Service workforce. See Appendix B for additional
information about the Tangoe and EnergyUnited contracts.

Recommendations

We recommend the vice president, Delivery and Post Office Operations, in coordination
with the vice president, Employee Resource Management:

1. Establish and implement a plan to allocate a portion of the vehicle shuttle services
   work performed at the 28 vehicle maintenance facilities included in our audit for
   employees on the periodic roll.


13
   Management stated they could not provide the number of employees on the periodic roll who are able to return to
work because of the strict requirements regarding the placement of injured employees on rehabilitation assignments;
however, they indicated 2,479 of the 16,497 employees have been deemed totally non-employable.
14
   This program includes vehicle training courses along with a check for a safe driving record and a valid license.
15
   Guidelines for Assignment of Limited Duty and Rehabilitation Employees; July 1, 2011.
16
   We could not determine the savings related to the use of employees on the periodic roll because necessary
information, such as the number of vehicles shuttled and number of contract employees used, is not maintained in
the Vehicle Management Accounting System (VMAS).
17
   According to Postal Service management at headquarters, Human Resources management is responsible for
identifying individuals on the periodic roll who are capable of performing assignments in Operations (in this case, at
the VMFs); while managers in Operations are responsible for making job offers to these employees once they have
been identified.


                                                          3
Rehabilitation Assignments for Employees                                        HR-AR-12-004
 Injured on Duty



2. Assess the feasibility of allocating a portion of the shuttle services at the remaining
   281 vehicle maintenance facilities to rehabilitation assignments.

We recommend the vice president, Employee Resource Management:

3. Establish a training plan for employees on the periodic roll who receive and accept
   an offer to perform vehicle shuttle service work.

Management’s Comments

Management agreed with recommendations 1 and 2 and stated that, while identification
of rehabilitation employees able to perform shuttle service work is a local issue, the
recommendations are an opportunity for all Delivery Operations staff to assist the Postal
Service in reducing OWCP costs and future liabilities. As such, management stated
they will issue a memorandum to all district and area managers directing the local
human resources group to consult with VMF management in their process of evaluating
proper placement of injured employees. Management also stated this will be a joint
effort to assess the feasibility of using rehabilitation employees to shuttle vehicles.
Management expects to implement corrective actions for recommendations 1 and 2 by
September 30, 2012.

Management disagreed with recommendation 3, stating the Postal Service already has
extensive training programs required for all employees who operate postal vehicles.
Furthermore, any employee offered a modified duty assignment involving shuttle service
work would have to meet the qualification standards before the offer is extended. See
Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to recommendations 1 and 2 and corrective actions should
resolve the issues identified in the report.

We consider management’s comments regarding recommendation 3 non-responsive.
Management stated their reason for disagreeing with the recommendation is that they
already have an extensive training program for employees operating postal vehicles,
and any employee assigned to the shuttle service work would have to meet the
qualification standards before a modified assignment is extended. We acknowledged in
the report the existence of the Safe Driver Program and the need for individuals
operating postal vehicles to successfully complete the program. We also understand
that employees assigned to shuttle work must meet the required qualification standards.
However, the intent of the recommendation was for management to establish a plan to
train individuals on the periodic roll who are physically able to perform shuttle service
work. This would increase the pool of employees available for shuttle work
assignments, thereby, reducing the number of employees on the periodic roll and


                                             4
Rehabilitation Assignments for Employees                                      HR-AR-12-004
 Injured on Duty


resulting in cost savings for the Postal Service. The increasing costs associated with the
Postal Service’s worker’s compensation program and its future liability make it
imperative that management explore all avenues for returning injured employees to
work. We view the disagreement on this recommendation as unresolved and plan to
pursue it through the formal audit resolution process.

The OIG considers recommendations 1 through 3 significant and, therefore, requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.




                                            5
Rehabilitation Assignments for Employees                                        HR-AR-12-004
 Injured on Duty



                             Appendix A: Additional Information

Background

A rehabilitation assignment is provided when the effects of an employee’s injury are
considered permanent and/or the employee has reached maximum medical
improvement. Employees in permanent rehabilitation positions have the same rights to
pursue promotional and advancement opportunities as other employees and they can
work outside of their craft and/or facility. All rehabilitation assignments are reviewed to
determine whether the employee is properly placed in a duty assignment. Additionally,
the identification of these assignments is made in conjunction with local Health and
Human Resource managers and the District Reasonable Accommodation Committee.
Management also holds interactive meetings with injured employees to discuss
available work assignments.

Management expects employees who fully or partially recover from their injuries to
return to work and, if it appears the disability will continue for at least 60 days, the
Department of Labor’s OWCP may place them on the periodic roll. Where either
prolonged or permanent disability is expected, compensation for wage loss is paid via
the OWCP. The OWCP informs employees that benefits for total disability are payable
only while they are unable to perform their regular duties at work. The average number
of Postal Service employees on the periodic roll increased from about 12,000 in
FY 2007 to about 16,000 in FY 2011, as depicted in Figure 1.

   Figure 1: Average Number of Employees on the Periodic Roll, FYs 2007–2011




              Source: Injury Compensation Performance Analysis System.




                                                    6
Rehabilitation Assignments for Employees                                                                HR-AR-12-004
 Injured on Duty



Objectives, Scope, and Methodology

Our objectives were to review Postal Service policy on rehabilitation assignments for
employees injured on duty and determine whether those employees could perform
certain contract work. Our scope was Postal Service employees injured on duty and on
the OWCP periodic roll as of March 31, 2012; and work that falls under the USAC,
Tangoe, and EnergyUnited contracts.

To accomplish our objectives, we reviewed Postal Service policies18 covering
reassignment or reemployment of employees injured on duty. We interviewed
Postal Service Supply Management officials and OIG Supply Management personnel to
identify contract work that could potentially provide rehabilitation assignments for
employees on the periodic roll.

Additionally, we reviewed 190 categories of contracted services and judgmentally
selected six service areas involving work that could potentially be in-sourced and
performed by employees on the periodic roll. We then reviewed these six areas with
Postal Service Supply Management officials and determined that only the Tangoe and
USAC contracts provided potential for in-sourcing opportunities and rehabilitation
assignments. We subsequently identified and included the EnergyUnited contract.

U.S. Auto Club

The USAC contract was initiated in 2005 and involves shuttling vehicles weighing less
than 1 ton, such as jeeps, long-life vehicles (LLVs),19 and mini-vans. The contractor
uses tow trucks to shuttle multiple vehicles from their assigned location to the servicing
VMF for maintenance, repair, or transfer. The shuttle service schedules both short- and
long-distance vehicle movement based on vehicle maintenance schedules and vehicle
availability. Generally, vehicles are dropped off and picked up prior to postal carriers
going out on their delivery routes, or after they return from their routes at the end of the
day.

We obtained and reviewed the USAC contract and interviewed the contract officer
representative (COR) and contract manager to discuss the contract and determine the
skills and/or requirements needed to perform shuttle service work and the reason the
work was outsourced.

We reviewed Vehicle Maintenance Bulletin VMB-01-12, Vehicle Maintenance Repair
Agreement for Shuttling Service, to identify the procedures for payment and
reconciliation of USAC invoices. We also reviewed Postal Service policy20

18
   Employee and Labor Relations Manual, Issue 30, Section 546, December, 2011; Handbook EL-505, Injury
Compensation, Rehabilitation Program, December 1995; and APWU Agreement - 2010 through 2015 (Chapter 13).
19
   LLVs are right-hand drive vehicles used for curbline delivery of mail directly to mail boxes. These vehicles have an
open interior for carrying mail with a cargo capacity of 1,000 pounds and 108 cubic feet of space.
20
   Handbook PO-701, Fleet Management.


                                                           7
Rehabilitation Assignments for Employees                                        HR-AR-12-004
 Injured on Duty


and spoke with Postal Service officials to gain an understanding of oversight regarding
VMAS.

We obtained supplier payment history data from the Accounts Payable Excellence
System and the Enterprise Data Warehouse to determine contract costs and what the
savings would be if employees on the periodic roll performed shuttle work. We found,
however, that shuttle service costs are not isolated in these systems. After consultation
with Postal Service officials, we were able to obtain shuttle service costs from the VMAS
for analysis. We could not make a determination on the savings related to the use of
employees on the periodic roll because necessary information, such as the number of
vehicles shuttled and number of contract employees used, is not maintained in these
systems for analysis.

We surveyed the 28 VMF managers who use the USAC contract to obtain:

   A general understanding of shuttle service work.

   The percentage of drivable shuttled vehicles.

   The portion of work that could be potentially performed by employees on the periodic
    roll.

   The number of positions that could be identified as rehabilitation assignments for
    these employees.

Based on the survey, we determined the percentage of drivable vehicles. Additionally,
we determined the portion of work available by identifying the number of vehicles that
employees on the periodic roll could drive. We then divided that number by the total
number of shuttled vehicles for FY 2011.

We interviewed the director of Safety and Health to determine the training needed to
perform USAC shuttle service work and the number of employees on the periodic roll.

Tangoe and EnergyUnited

The Postal Service awarded a contract to Tangoe on August 30, 2006, for
telecommunication expense management services, which provide the Postal Service
with centralized ordering, billing, reporting, and bill auditing. The Postal Service paid
$14.5 million in contract costs from FYs 2007 through 2011 (the average annual
contract cost is about $3 million).

The Postal Service awarded a contract to EnergyUnited on August 10, 2007, for utility
expense management services, with an annual cost of about $40 million. In addition to
overall utility management and rate optimization services, the contract required the
development and maintenance of the Utility Management System, which handles
consumption data for electricity, natural gas, and fuel oil bill management.


                                             8
Rehabilitation Assignments for Employees                                     HR-AR-12-004
 Injured on Duty


We obtained and reviewed the Tangoe and EnergyUnited contracts to determine
whether employees on the periodic roll could potentially perform the work. We met with
the COR and contract manager for both contracts to obtain an understanding of the
contracts and determine the payment history and why the work was outsourced.
Additionally, we interviewed San Mateo Accounting Service Center officials to determine
the skill requirements needed to perform invoice billing activities and searched the
Postal Service’s intranet to identify the occupational codes and the job requirements for
performing this type of work.

We visited the Tangoe office to observe invoice billing activities and to determine the
skills and physical requirements necessary to process and pay invoices. We also met
with Postal Service Energy Initiative managers to determine why and how the
EnergyUnited contract was implemented. We reviewed the Energy Policy Act of 2005
and the Energy Independence and Security Act of 2007 to identify the energy reduction
goals established for federal agencies and how the acts relate to the use of
EnergyUnited.

We conducted this performance audit from September 2011 through August 2012, in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on July 18, 2012, and included their
comments where appropriate.

Prior Audit Coverage

The OIG report titled U.S. Postal Service’s Use of Employees in Rehabilitation Status
(Report Number HR-AR-10-002, dated May 27, 2010) concluded that the Postal Service
has spent, on average, $71 million per year contracting out call center work that
employees in rehabilitation status could perform. In addition, the Postal Service could
realize cost savings of about $349 million over 10 years if they in-sourced contract call
center work using Postal Service employees in rehabilitation status. The report
recommended the president, Mailing and Shipping Services, require Postal Service
officials at Customer Contract Solutions to establish a plan to in-source all call center
work, including a staffing and training plan. The report also recommended the vice
president, Labor Relations, expedite negotiations and finalize an agreement with the
APWU that addresses staffing for in-sourced call center work. Management agreed with
both recommendations, stating that they would develop a full plan to in-source call
center work, including detailed cost estimates and a timeline of activities.




                                            9
Rehabilitation Assignments for Employees                                                                 HR-AR-12-004
 Injured on Duty



                                   Appendix B: Detailed Information


Tangoe

The Postal Service identified a need to centralize the management of its voice
services21 to increase the identification of savings opportunities and ensure that review
and payment of vendor invoices at the districts is done in a cost-effective manner.
According to Postal Service officials, they did not have employees with the specific
knowledge and skills to consolidate and effectively manage voice services, which
include ordering, billing, auditing, and reporting. The required skill set includes
knowledge of accounting or related experience and the ability to pass Postal Service
accounting exams that are a prerequisite for accounting positions. Services provided by
Tangoe include, but are not limited to, the monthly processing and payment of
4,500 invoices, resolution of all invoice disputes, auditing of invoices to ensure carrier
compliance with contract terms, and development of reports on usage patterns of end
users. Because of the skills required to perform these services, Postal Service officials
indicated they did not think this work would be appropriate for a rehabilitation
assignment. Our on-site observation of work performed by Tangoe and interviews with
various company officials confirmed management’s position.

EnergyUnited

Prior to August 2007, the Postal Service was unable to capture detailed systematic
consumption data because the process for paying utility invoices for more than
37,000 locations was decentralized. Specifically, each local facility had a contract
specialist responsible for paying the energy and utility invoices. Through a subsequent
downsizing of the organization, these positions were eliminated.

The Postal Service then decided to outsource the work to:

    Address the need to centralize billing services into one repository to ensure proper
     measurement and management of energy consumption.

    Reduce costs and facilitate compliance with the Energy Policy Act of 2005.22

    Address the shortage of resources and expertise available within the Postal Service
     necessary to process 14,000 monthly invoices and perform tax recoupment and rate
     optimization.

The EnergyUnited contract awarded on August 10, 2007, includes overall utility
management, bill payment and auditing, facility energy management, rate analysis and

21
  Voice services include local voice dial tone and mobile devices and services.
22
  Section 102(a)(1) of the act requires all federal agencies, including the Postal Service, to reduce their energy
consumption by 20 percent by 2015.


                                                           10
Rehabilitation Assignments for Employees                                                              HR-AR-12-004
 Injured on Duty


optimization, and procurement in competitive markets. Postal Service officials indicated
this work would not be a proper rehabilitation assignment for employees on the periodic
roll because of the technical knowledge and understanding required to analyze any
exceptions or variances with the utility invoices and perform reporting functions. They
added that the work performed by EnergyUnited goes well beyond transactional work
and would require research, analysis, and decision-making that go beyond what is
generally required of a craft employee.23 Our fieldwork confirmed management’s
position.




23
  Craft employees are individuals organized along craft lines based on the nature of their work and most are
represented by one of four unions — APWU, NALC, NRLCA, or NPMHU.



                                                         11
Rehabilitation Assignments for Employees                      HR-AR-12-004
 Injured on Duty



                          Appendix C: Management’s Comments




                                           12
Rehabilitation Assignments for Employees        HR-AR-12-004
 Injured on Duty




                                           13
Rehabilitation Assignments for Employees        HR-AR-12-004
 Injured on Duty




                                           14
